FAA’S MANAGEMENT OF AND CONTROL
      OVER MEMORANDUMS OF
         UNDERSTANDING
      Federal Aviation Administration
       Report Number: AV-2003-059
      Date Issued: September 12, 2003
           U.S. Department of
                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on FAA’s Management of and                 Date:    September 12, 2003
           Control Over Memorandums of Understanding
           AV-2003-059

  From:    Alexis M. Stefani                                      Reply to
                                                                  Attn. of:   JA-10:X60500
           Principal Assistant Inspector General
            for Auditing and Evaluation

    To:    Federal Aviation Administrator

           This report presents the results of our audit of the Federal Aviation
           Administration’s (FAA) management of and control over national, regional, and
           local Memorandums of Understanding (MOU) with the National Air Traffic
           Controllers Association (NATCA). Our objectives were to (1) evaluate FAA’s
           process for negotiating, approving, and implementing MOUs outside the national
           collective bargaining agreement, and (2) identify any potential cost or operational
           impacts of local, regional, and national MOUs between FAA and NATCA.
           Exhibit A contains details on the scope and methodology we used in conducting
           the audit.


           BACKGROUND
           In 1998, under the authority of personnel reform, FAA and NATCA entered into
           a 5-year national collective bargaining agreement (CBA). The comprehensive
           agreement, which expires in September 2003, addressed many significant issues
           that were previously non-negotiable, including pay and benefits for controllers.
           Article 7 of the agreement allows FAA managers and NATCA representatives to
           enter into written agreements or MOUs outside the national CBA. MOUs are
           negotiated for issues that are not specifically addressed by the national agreement
           such as (1) changes in local working conditions, (2) implementation of new
           technology, and (3) training on new equipment. MOUs can be negotiated at the
           national, regional, or local level.
                                                                                 2


RESULTS IN BRIEF
We found FAA’s processes for negotiating, approving, and implementing MOUs
outside the national CBA with NATCA were inadequate. For example, at the time
of our review, FAA had:

• no system to track MOUs, but estimated there could be anywhere between
  1,000 and 1,500 MOUs Agency-wide;
• broad authority among managers to negotiate MOUs and commit the Agency;
• no requirement to include labor relations specialists in negotiations over
  MOUs;
• no standard guidance on how to negotiate, implement, or sign MOUs; and
• no requirement to estimate potential cost impacts prior to signing an MOU.

We recognize that MOUs can serve a legitimate purpose, and in fact, do in certain
contexts. For example, we found MOUs that (1) establish local procedures for
determining a facility’s operational schedule or work shifts, (2) designate periods
during the year when controllers are guaranteed at least two consecutive or non-
consecutive weeks of annual leave, (3) outline both union and management’s roles
in developing and implementing new technology, and (4) set parameters for
making changes to local working conditions such as facility upgrades. However,
we also reviewed a number of MOUs that contained specific provisions that were
not cost-effective and, in our opinion, were neither necessary nor in the best
interest of the Government.

Because of the significant control weaknesses and budgetary impact, we briefed
the FAA Administrator on our concerns in January 2003, 2 months after initiating
this review. As a result of that meeting, FAA issued a new Agency directive, FAA
Order 3710.18, “Internal Coordination Requirements for Negotiating Term and
Mid-Term Agreements (Including Memoranda of Understanding and Memoranda
of Agreement) with FAA Unions,” which became effective June 1, 2003. The
Order makes significant changes to the Agency’s process for negotiating,
approving, and implementing MOUs. For example, the Order now requires that:

• a labor-management relations specialist lead all national and regional
  negotiations;
• proposed MOUs be analyzed for affordability relative to anticipated funding
  levels;
• MOUs contain mandatory provisions, such as specific expiration dates; and
• copies of all national, regional, and local MOUs be sent to the Director of
  Labor and Employee Relations for inclusion in a national database, which is
  currently being developed.
                                                                                   3


In our opinion, these new procedures, if properly implemented, will provide FAA
with much-needed controls over its MOU process. However, while the new
procedures will affect future MOUs, previously negotiated MOUs will continue to
impact the Agency unless they are modified or rescinded. During our review, we
found several MOUs that had substantial cost implications for the Agency. For
example,

• In July 1998, as part of the new controller pay system, FAA entered into a
  national MOU providing controllers with an additional cost-of-living
  adjustment. As a result, at 110 locations, controllers receive between 1 and
  10 percent in “Controller Incentive Pay,” which is in addition to Government-
  wide locality pay. In addition, FAA management provided this additional cost-
  of-living allowance to air traffic field managers, supervisors, and specialists.
  In FY 2002, CIP cost FAA about $35.5 million.

Although many agreements we reviewed had cost implications, we found no
evidence that the budgetary impact of most agreements had been considered prior
to committing the Agency. For example:

• In March 2001, FAA entered into a national MOU that allows controllers
  transferring to larger consolidated facilities to begin earning the higher salaries
  associated with their new positions substantially in advance of their transfer or
  taking on new duties. At one location, controllers received their full salary
  increases 1 year in advance of their transfer (in some cases going from an
  annual salary of around $55,000 to over $99,000). During that time, they
  remained in their old location, controlling the same airspace, and performing
  the same duties. At three locations alone, we found FAA incurred over
  $2.2 million in unnecessary one-time costs as a result of this MOU.

We also reviewed several MOUs that FAA entered into that provided large
incentives to controllers for simply meeting training milestones for new
equipment. For example:

• One MOU (signed in October 2001) for a new free flight tool, User Request
  Evaluation Tool (URET), gave each controller two $250 cash awards and a
  24-hour time-off award for meeting certain training milestones on the new
  system. The MOU contained no distinction of awards for individual
  contributions other than coming to work and attending training. In fact, at
  2 locations, 11 controllers received the total $500 cash award and
  16 controllers received the 24 hours of time-off even though they were on
  detail, on military leave, medically disqualified, or on workers’ compensation.
  At six facilities alone, this MOU resulted in FAA incurring approximately
  $1.3 million in individual cash awards and 62,500 hours in time off, which is
  the equivalent of approximately 30 full-time positions.
                                                                                                4


• At Philadelphia, there was a verbal MOU that gave each employee $1,000 in
  cash and 3 days off in connection with deployment of the new Standard
  Terminal Automation Replacement System (STARS). As a result of this
  agreement, FAA incurred $114,000 in cash awards and 2,736 hours (the
  equivalent of approximately one full-time position) in time-off awards for
  114 employees. Currently, STARS is scheduled to be deployed to more than
  170 terminal facilities, and it is unclear if FAA will enter into similar
  agreements at other locations.

We also found that FAA entered into MOUs that restricted management’s ability
to monitor workforce productivity. For example:

• FAA is developing a labor distribution system, called CRU-X, which would
  account for and distribute its labor costs, including the costs of FAA’s
  15,000 air traffic controllers. As designed, the system would assess air
  traffic’s workload, performance, and workforce productivity. However, in
  September 2002, FAA and NATCA entered into an MOU that restricted the
  system’s ability to track employee productivity. Specifically, the MOU
  eliminated the requirement for controllers to sign in or out, and restricted
  CRU-X from being used to identify or assign the time controllers spend on
  collateral duties when not controlling air traffic. In our June 3, 2003
  assessment of FAA’s cost accounting system,1 we cited the lack of those
  fundamental procedures as a serious internal control weakness that brings into
  question the validity of labor hour data. In FAA’s response, the Agency
  agreed to provide satisfactory internal controls to ensure accurate collection of
  start and stop times for employees, as well as collect data by position and
  collateral duties by function. FAA needs to reopen negotiations in September
  2003 and follow through on the Agency’s commitments to ensure that it has a
  credible labor distribution system.

Based on our findings, FAA undertook an internal review of all MOUs, which
identified 14 national and numerous local MOUs that were costly or “problematic”
for the Agency. As a result, FAA and NATCA entered into negotiations to modify
or rescind those agreements as part of an agreement “in principle” to extend the
current CBA, which expires in September 2003.

FAA and NATCA met in June and July 2003; according to FAA officials, they
have made progress in correcting several of the problematic MOUs and are
continuing negotiations to correct other MOUs. However, FAA officials told us
that if those negotiations are unable to resolve the most problematic MOUs, FAA
is prepared to forgo plans to extend the current CBA and move directly into


1
    “2002 Status Assessment of Cost Accounting System and Practices,” Report No. FI-2003-043.
                                                                                   5


negotiations over a new CBA. FAA notified NATCA of these plans in a June 17,
2003 memorandum.

While FAA’s actions are clearly a step in the right direction, we urge the Agency
to remain diligent in its efforts to resolve the most costly agreements as quickly as
possible. Otherwise, many of the MOUs we reviewed will continue to impact
FAA’s budget well into the future. Those potential cost liabilities come at a time
when FAA is facing multi-billion-dollar declines in projected Aviation Trust Fund
receipts, and FAA’s operating budget is severely strained.


RECOMMENDATIONS
• We are requesting that FAA provide us with the status of its negotiations and
  resolutions of the costly and/or problematic MOUs identified in this report and
  the Agency’s internal review, along with the budgetary impact of any
  unresolved MOUs.

• We are recommending that FAA establish milestones for completing its
  proposed national database of all MOUs, and within 30 days of the completion
  of the database system, provide us, and the appropriate House and Senate
  Committees, with the total estimated budgetary impact of all MOUs signed
  since June 1, 2003.

• In addition, we are recommending that FAA undertake an internal evaluation
  of its new policies and procedures for MOUs to ensure that the new procedures
  are being followed and have been effective at improving the Agency’s
  management and controls over MOUs.

• Finally, we are recommending that FAA exercise the option to reopen the
  September 18, 2002 MOU concerning the implementation of CRU-X software,
  and follow through on its commitment to provide satisfactory internal controls
  to ensure collection of accurate start and stop times for employees, as well as
  collect data by position and collateral duties by function.


AGENCY COMMENTS
On August 27, 2003, we met with the FAA Administrator’s Chief of Staff and the
Deputy Assistant Administrator for Labor Relations to discuss the facts and
recommendations in our report. FAA agreed with the facts as presented in our
report and, in general, concurred with our recommendations. We are requesting
that FAA provide formal comments on each recommendation within 30 calendar
days.
                                                                               6


FINDING AND RECOMMENDATIONS

FAA’s Lack of Controls Over MOUs Led to Significant Cost and
Operational Impacts on the Agency
We found that FAA did not have standardized procedures for negotiating,
approving, and implementing MOUs. Specifically, FAA (1) did not track the
number of MOUs it had signed with NATCA; (2) delegated broad authority to
managers to negotiate MOUs, but did not require that a labor relations specialist
be involved during negotiations; and (3) had not issued standardized guidance on
how to develop an MOU. As a result, FAA does not have an accurate inventory of
the number or nature of local, regional, or national MOUs that have been signed
with NATCA.

While many MOUs serve legitimate purposes, such as defining local scheduling
parameters, outlining certain pay and performance programs, interpreting
procedures for implementing new technology, and implementing local changes in
working conditions, we reviewed a number of MOUs that have had and will
continue to have significant budgetary and/or operational impacts on the Agency.
For example, FAA entered into national and local MOUs that required the
Agency, between fiscal years (FY) 2001 and 2003, to expend approximately
$23 million for overtime costs, $1.8 million for cash awards, $30 million in
additional salary incentives, and 65,000 hours of time-off awards (the equivalent
of approximately 30 full-time positions). In addition, language in one MOU
allowed controllers to receive immunity for 84 operational errors (when a
controller does not ensure that FAA separation standards are maintained between
airplanes).

Because of the potential impact of our preliminary findings, we briefed the
Administrator in January 2003, 2 months after initiating our review.
Subsequently, FAA took action to address our immediate concerns. Between
January and March 2003, FAA determined which MOUs were the most costly or
problematic. In June 2003, FAA and NATCA entered into negotiations to modify
or rescind those MOUs as part of the plans to extend the current national CBA
(which expires in September 2003). FAA also issued a new Agency directive,
FAA Order 3710.18, “Internal Coordination Requirements for Negotiating Term
and Mid-Term Agreements (Including Memoranda of Understanding and
Memoranda of Agreement) with FAA Unions,” which became effective June 1,
2003. The Order makes significant changes to the Agency’s process for
negotiating, approving, implementing, and tracking MOUs and, if properly
implemented, should provide FAA with much-needed controls over MOUs.
                                                                                   7


FAA Did Not Track the Number of National, Regional, and Local
MOUs
FAA did not have a complete inventory or database of MOUs it had signed with
NATCA. However, in June 2002, at the request of the House Transportation
Appropriations Subcommittee, FAA obtained copies of all national, regional, and
local MOUs, and created a “one-time” database. At that time, the database
contained approximately 1,000 MOUs, approximately 400 national and
600 regional and local. To determine the validity of FAA’s database, we
compared it to MOUs obtained from each facility we visited. Out of 15 facilities
visited, we found discrepancies in the database on the number of MOUs reported
at 13 locations. We found many MOUs included in the database that had elapsed
and some active MOUs that were not included in the database. As a result, the
true universe of MOUs is unknown; however, FAA estimates that there are
between 1,000 and 1,500 national, regional, and local MOUs.


FAA Delegated Broad Authority to Managers to Negotiate MOUs
We found that FAA delegated broad authority to managers to negotiate and
approve MOUs. For example, at Headquarters, we found MOUs that were
negotiated and approved by:

−   the Deputy Assistant Administrator for Labor Relations,
−   the Director of Air Traffic Service,
−   Program Managers for specific National Airspace System (NAS) projects,
−   the Deputy Director of Air Traffic Planning and Procedures, and
−   the Manager of Air Traffic Labor Management Relations.

In some cases, we found MOUs that had a significant impact on Air Traffic
resources that had been approved by managers outside of the Air Traffic Service
line-of-business. For example, we found one MOU approved by a NAS Program
Director that required Air Traffic facility managers to (1) expend overtime during
controller training on the new system, (2) provide large cash and time-off awards
to controllers based on meeting certain training deadlines, and (3) grant controllers
immunity for any operational errors they had during system integration. Despite
the significant impact this MOU had on specific Air Traffic facilities, we could
find no evidence that provisions of the agreement had been discussed or
coordinated with the affected Air Traffic facility managers.

We also found there was no requirement that FAA labor relations specialists be
involved in negotiations for MOUs. In fact, regional labor relations specialists
told us that in most cases neither their presence nor their expertise were requested
during negotiations. We were told one reason for this was that Air Traffic
                                                                                                               8


personnel felt that the presence of labor relations personnel delayed negotiations
and placed the union on the defensive.


FAA Had No Standard Guidance on How to Develop an MOU
At the three regions visited, we found only minimal guidance describing MOU
definitions and format. This guidance included the preferred format of MOUs and
written guidance on what MOUs should contain, such as including identification
of participants, reopening provisions, and expiration dates. However, according to
FAA managers, there was no requirement that the guidance be followed.

Our review of MOUs issued at 15 facilities confirmed that this guidance was not
widely followed. Of 112 MOUs reviewed at the 15 locations, we found that:

− 49 MOUs (44 percent) did not completely identify the parties impacted by the
  MOU,
− 70 MOUs (63 percent) did not have reopener clauses,
− 80 MOUs (71 percent) did not have expiration dates, and
− 60 MOUs (54 percent) were missing other pertinent data such as dates, names,
  and/or titles of individuals who signed the MOUs.

Without the proper provisions in MOUs, it can be difficult to rescind or modify
certain agreements. For example, without expiration dates or reopener clauses,
facility managers must sometimes enter into lengthy negotiations to discontinue or
modify agreements. More than one manager stated that an MOU in question was
signed by his/her predecessor, or has been in place for so long that the manager is
simply “stuck with it.”


MOUs Have Cost and/or Operational Impacts on the Agency
We found that managers were not required to determine the costs of MOUs prior
to binding the Agency.2 As a result, we found MOUs that have impacted FAA’s
ability to manage resources effectively and efficiently. While some MOUs serve
legitimate purposes, such as scheduling local operations and implementing local
changes in working conditions, several MOUs we reviewed contain substantial
cost and/or operational implications for the Agency. For example, we found
national MOUs that impacted the ability of facility managers to efficiently expend
overtime, reward individual contributions, take personnel actions based on
performance, assign work within their facility, and/or determine the most efficient
and economical methods to train controllers on new equipment.
2
    In our January 1998 audit report “Air Traffic Controller Workforce Labor Agreements,” Report No. AV-1996-061,
    we found similar problems. We recommended that FAA require managers to obtain and evaluate cost data
    associated with proposals before entering into MOUs.
                                                                                                           9


The following table lists the MOUs we reviewed that had a significant cost and/or
operational impact on FAA. Further details of each MOU are provided in Exhibits
C through I.

Examples of MOUs That Were Costly and/or Restricted FAA’s Ability
to Manage Resources Effectively and Efficiently

             MOU                          SUBJECT                                 IMPACT
    User Request Evaluation         • Facility Overtime           § $23 million in overtime.
    Tool (URET)                     • Awards/Recognition          § $1.3 million in cash awards.
                                    • Personnel Action            § 62,500 hours of time off.
                                                                  § Immunity granted for 84 operational
                                                                    errors.
    Controller Incentive Pay        • Cost-of-Living              § $35.5 million in additional cost-of-
                                      Differential Pay              living differential paid in FY 2002.
                                    • Cash Bonuses                § $1 million in incentives.
    “Pay Rule 59”-                  • Salary Increases            § $2.2 million in additional salary costs.
    Consolidated Facilities
    Permanent Change of             • Relocation Expenses         § $1.3 million in PCS costs that would
    Station (PCS) Benefits-                                         not have been authorized under the
    Consolidated Facilities                                         CBA.
    National Airspace               • Assignment of Work          § 68 controllers on workgroups at
    Redesign (NAR)                  • Facility ATC Level            10 facilities
                                                                  § Precludes management from
                                                                    reclassifying a facility based on
                                                                    decreases in air traffic.
    Airport Movement Area           • Training/Overtime           § $181,000 in Overtime.
    Safety System (AMASS)
    Labor Distribution              • Personnel Action            § Precludes management from using the
    System (CRU-X)                                                  system to measure controller
                                                                    productivity.

URET
In July and October 2001, FAA and NATCA entered into two MOUs concerning
the deployment of URET at seven Air Route Traffic Control Centers (Center).
The MOUs allowed NATCA to designate Cadre Instructors (controllers trained on
URET who, in turn, become instructors for facility personnel) and provided for
mandatory overtime to replace instructors when they were involved in training. In
addition, FAA agreed that basic watch schedules could not be changed as a result
of training, and that facility management would increase shift coverage
requirements to conduct URET training. As a result, FAA spent over $23 million
in overtime to backfill for 152 cadre instructors and train bargaining unit
employees at 6 sites.3


3
    The Atlanta Center did not implement the two URET MOUs due to staffing concerns.
                                                                                                               10


Another URET MOU required managers to give bargaining unit employees
four different awards for meeting training milestones. The awards included
two $250 cash awards for each bargaining unit employee, one facility award for
$10,000 to be used on facility enhancements, and one 24-hour time-off award to
each bargaining unit employee. At all six sites, all bargaining unit employees
received the maximum amount of awards possible. In total, FAA gave out
approximately $1.3 million in cash awards and approximately 62,500 hours of
time-off awards, which is the equivalent of approximately 30 full-time positions.

Additionally, the MOU contained no distinction of awards for individual
contributions other than coming to work and attending the training. In fact, at the
Chicago and Washington Centers, 11 bargaining unit employees received the cash
awards and 16 received the time-off awards even though they were on detail, on
military leave, medically disqualified, or on workers’ compensation.

The URET MOU also stated that each bargaining unit employee will be granted
immunity from responsibility for all operational errors4 while URET was
implemented. As a result, between October 2001 and May 2003, the 6 sites
reported that controllers received immunity for 84 operational errors.


Controller Incentive Pay
As part of the new pay system for controllers, FAA and NATCA entered into a
national MOU providing controllers with an additional cost-of-living differential.
As a result of this MOU, in FY 2002, controllers at 110 locations received
between 1 and 10 percent in a cost-of-living pay differential known as Controller
Incentive Pay (CIP), which is in addition to Government-wide locality pay. In
addition, FAA management provided this additional cost-of-living allowance to air
traffic field managers, supervisors, and specialists. In FY 2002, CIP cost FAA
about $35.5 million.


“Pay Rule 59” – Consolidated Facilities
In March 2001, FAA entered into an MOU covering salary increases for
controllers transferring to consolidated facilities. The “Pay Rule 59” MOU allows
those controllers to begin earning the higher salaries associated with their new
positions substantially in advance of their physical transfer to the new location or
taking on new duties. At one location, controllers received their full salary
increases 1 year in advance of their transfer (in some cases going from an annual
salary of around $55,000 to over $99,000). During that time, they remained in
their old location, controlling the same airspace, and performing the same duties.
4
    An Operational Error (OE) occurs when a controller does not ensure that FAA separation standards are maintained
    between airplanes.
                                                                                 11


At three locations alone, we found FAA incurred over $2.2 million in unnecessary
one-time costs as a result of this MOU.


Permanent Change of Station (PCS) Benefits-Consolidated Locations
At three consolidated facilities (Atlanta, Northern Virginia, and Northern
California) we reviewed, we found FAA entered into MOUs with NATCA that
changed PCS rules contained in the national CBA. Those MOUs eased
requirements for controllers at those locations to qualify for relocation benefits.
For example, an MOU for the Northern California terminal radar approach control
facility (TRACON), provided all controllers from Monterey and Bay TRACONs
and Oakland Center with relocation benefits as long as they moved at least
10 miles closer to the new consolidated facility. Under the national CBA, to
qualify for PCS benefits, a controller’s commute to their new duty location must
also have increased by at least 10 miles. We found that 13 controllers did not
increase their commute by 10 miles but were provided relocation benefits that,
under the terms of the national CBA, would not have qualified. The estimated
cost of the 13 moves is over $1.3 million.


National Airspace Redesign
On March 16, 2001, FAA and NATCA entered into an MOU concerning the
National Airspace Redesign (NAR). The NAR MOU allows a significant number
of bargaining unit employees to be detailed to numerous national, regional, and
local workgroups, resulting in large expenditures of backfill overtime. While
involving bargaining unit employees in the research, design, and implementation
of new technology is clearly beneficial to FAA, there is concern over the numbers
of bargaining unit employees participating on the different NAR workgroups and
the amount of overtime resources expended to cover their absences.            At
10 facilities, we found 62 bargaining unit employees were granted part-time
absences and 6 bargaining unit employees were granted full-time absences to work
on NAR workgroups. Significant overtime resources were used to cover for their
absences. For example, at the New York TRACON, six part-time and three full-
time controllers worked on NAR workgroups. As a result, the New York
TRACON spent approximately $843,000 in overtime to replace the
nine bargaining unit employees on NAR workgroups.

The NAR MOU also has a longer term impact in that it allows a facility to keep its
air traffic control (ATC) level classification (and commensurate controller
salaries), even though its number of operations and degree of operational difficulty
have decreased. Although no facility has had its ATC classification level reduced
thus far as a result of airspace redesign, this agreement restricts FAA’s ability to
do so.
                                                                                  12


Airport Movement Area Safety System (AMASS)
On July 6, 2000, FAA and NATCA signed an MOU addressing impact and
implementation issues concerning AMASS, a new ground radar. The AMASS
MOU required facility managers to expend overtime dollars to fill in for
bargaining unit employees who were being trained on AMASS. According to
facility managers, the MOU did not allow the managers to determine alternative
methods in lieu of overtime to provide the training. For example, one air traffic
manager stated that he had developed an AMASS training schedule that would
deliver the required 8 hours of training to all employees at no cost. However,
according to the manager, the union stated that overtime dollars had to be used per
the requirements of the MOU. As a result, the facility spent approximately $7,000
on overtime for AMASS training.


CRU-X
CRU-X is the labor distribution system FAA chose to track hours worked by air
traffic employees. As designed, CRU-X could have provided credible workforce
data for addressing controller concerns about staffing shortages, related overtime
expenditures, and how many controllers are needed and where. That information
is especially important, given projections of pending controller retirements.
Unfortunately, CRU-X has not been implemented as designed.

In September 2002, FAA and NATCA entered into an MOU that significantly
reduced the system’s ability to track employee productivity. Specifically, the
MOU eliminated the requirement for controllers to sign in or out, and restricted
CRU-X from being used to identify or assign the time controllers spend on
collateral activities when not controlling air traffic.

On June 3, 2003, we issued report number FI-2003-043, “2002 Status Assessment
of Cost Accounting System and Practices,” which identified the internal control
weaknesses of CRU-X resulting from the MOU. We recommended that FAA
implement the necessary internal controls in CRU-X to ensure that employees
accurately record their start and stop work times for hours worked and report air
traffic controller duties by position and collateral duties by function.

FAA concurred with our recommendation and stated that it would provide
satisfactory internal controls to ensure accurate collection of start and stop times
for employees, as well as collect data by position and collateral duties by function.
The September 2002 MOU contains a clause that allows either party to reopen the
MOU after one year. We recommend that FAA reopen the MOU and follow
through with its commitment to provide satisfactory internal controls to ensure
that it has a credible labor distribution system.
                                                                              13


FAA Has Taken Decisive Actions to Improve Controls Over
MOUs
On January 9, 2003, we briefed the FAA Administrator on the preliminary
findings of our audit. Based on that briefing, FAA took the following actions.

Between November 2002 and March 2003, FAA undertook an internal review of
MOUs signed with NATCA at the national, regional, and local levels. According
to FAA, the review team categorized concerns into three areas: pay MOUs,
national MOUs, and local MOUs. The review team found that several MOUs
provided inappropriate pay increases and inappropriate pay provisions. The
review team also expressed concerns regarding several national MOUs that dealt
with training, immunity clauses, the union’s right to stop system implementation,
and the union being given equal authority to that of management but without
accountability. The review team also found several local MOUs that were
inappropriate or expanded the National CBA.

As a result of the internal review, the FAA Administrator notified NATCA on
March 21, 2003, that she wished to address several problematic MOUs. The
Administrator listed six pay rule MOUs, eight national MOUs, and seven subjects
for which numerous local MOUs had been signed, that she wished to reopen with
the union.

FAA and NATCA officials met in June and July 2003 and have made some
progress in addressing several of the problematic MOUs by sending those MOUs
back to their respective facilities for renegotiations. Negotiations over other
MOUs continue. However, according to FAA officials, if those negotiations are
unable to address the most problematic MOUs, FAA is prepared to forgo plans to
extend the current CBA and move directly into negotiations over a new CBA. To
meet contractual guidelines, FAA notified NATCA of these plans in a June 17,
2003 memorandum. However, FAA could still decide to extend the CBA for
2 years.

On May 1, 2003, the FAA Administrator signed FAA Order 3710.18, “Internal
Coordination Requirements for Negotiating Term and Mid-Term Agreements
(Including Memoranda of Understanding and Memoranda of Agreement) with
FAA Unions.” The Order, which became effective June 1, 2003, effects
significant changes in the process for negotiating, signing, and tracking MOUs.
For example, the new procedures require that:

− a labor-management relations specialist lead national and regional
  negotiations;
− proposed MOUs are analyzed for affordability relative to anticipated funding
  levels;
                                                                               14


− MOUs contain mandatory provisions, such as a specific expiration date; and
− copies of all local, regional, and national MOUs be sent to the Director of
  Labor and Employee Relations for inclusion in a national database.

FAA is currently in the process of creating a web-based database with
storage/retrieval capabilities and multiple search functions. This database will
allow FAA to track all MOUs and identify the budgetary impact from those
agreements. These new procedures, if properly implemented, will provide FAA
with much-needed controls over the MOU process.

During the time period this audit was conducted, FAA and NATCA were
negotiating another MOU for deploying URET at the next 14 facilities. NATCA’s
proposal for an MOU governing URET deployment generally mirrored the
original URET MOU. We estimated that if a new MOU mirrored the original
MOU, it would cost FAA over $54 million in overtime, $3 million in cash awards,
and 146,000 hours of time-off awards (the equivalent of 70 full-time positions).
To address the concern, FAA proposed language that would make significant
changes in management oversight and the cost impact of the new URET MOU.

Between February and June of 2003, FAA and NATCA exchanged MOU
proposals. On June 13, 2003, approximately 12 months after FAA notified
NATCA of its intentions to deploy URET at the remaining 14 sites, FAA informed
NATCA that due to operational necessity, it would implement URET at the first of
the remaining 14 sites on July 14, 2003, even though there was no national MOU.
At the first site, the URET equipment was installed in May 2003, but never used.
Subsequently, FAA and NATCA signed the national MOU for URET
implementation in the remaining 14 sites. The changes implemented in the new
URET MOU should significantly decrease the amount of overtime used for URET
training by deleting mandatory use of overtime for instructors and allowing
management to determine when overtime usage is necessary to accomplish
training.

While FAA’s swift actions are a step in the right direction, we urge the Agency to
remain diligent in its efforts to resolve the most costly agreements as quickly as
possible. Many of the MOUs we reviewed will continue to impact FAA’s budget
well into the future. For example, controllers continue to receive the additional
“Controller Incentive Pay” premium, and FAA is considering facility
consolidations in New York and Boston. Those potential cost liabilities come at a
time when FAA is facing multi-billion-dollar declines in projected Aviation Trust
Fund receipts, and FAA’s operating budget is severely strained.
                                                                                 15


RECOMMENDATIONS
We recommend that FAA:

1. Provide us, within 30 days of the issuance of this report, with the status of its
   negotiations and resolutions of the costly and/or problematic MOUs identified
   in this report and the Agency’s internal review along with the budgetary impact
   of any MOUs that have not been resolved.

2. Establish milestones for completing its proposed national database of all
   MOUs and, within 30 days of the completion of the database system, provide
   us and the appropriate House and Senate Committees with the total estimated
   budgetary impact of all MOUs signed since June 1, 2003.

3. Undertake, within 90 days of the issuance of this report, an internal evaluation
   of its new policies and procedures for MOUs to ensure that the new procedures
   are being followed and have been effective at improving the Agency’s
   management of and controls over MOUs.

4. Exercise the option to reopen the September 18, 2002 MOU concerning the
   implementation of CRU-X software, and follow through on its commitment to
   provide satisfactory internal controls to ensure accurate collection of start and
   stop times for employees, as well as collect data by position and collateral
   duties by function.


AGENCY COMMENTS
On August 27, 2003, we met with the FAA Administrator’s Chief of Staff and the
Deputy Assistant Administrator for Labor Relations to discuss the facts and
recommendations in our report. FAA agreed with the facts as presented in our
report and, in general, concurred with our recommendations.


ACTION REQUIRED
In accordance with Department of Transportation Order 8000.1C, we would
appreciate receiving your comments on this report within 30 calendar days. If you
concur with the finding and recommendations, please indicate the specific actions
taken or planned and the target dates for action. If you do not concur, please
provide an explanation of your position. We welcome any alternative courses of
action that could resolve the issues.
                                                                             16


We appreciate the cooperation and assistance provided by you and your staff
during our review. If you have any questions or need further information, please
contact me at (202) 366-1992 or David A. Dobbs, Assistant Inspector General for
Aviation Audits, at (202) 366-0500.

                                       #
                                                                                  17




EXHIBIT A. SCOPE AND METHODOLOGY
This report provides the results of two audits. The original audit (developed from
a Hotline complaint) was conducted between July 2002 and November 2002, and
evaluated workforce-related expenses associated with MOUs concerning air traffic
facility consolidations. The second audit (OIG initiated) was conducted between
November 2002 and July 2003, and evaluated FAA’s process for negotiating,
approving, and implementing MOUs outside the National CBA. We determined
that a single audit report was the most effective way to address the findings
associated with MOUs between FAA and NATCA.

The audits were conducted in accordance with Government Auditing Standards
prescribed by the Comptroller General of the United States, and included such
tests as we considered necessary to provide reasonable assurance of detecting
abuse or illegal acts. The following methodology was used in conducting this
review.

To determine whether FAA ensured that workforce-related expenses associated
with facility consolidations were necessary, cost-effective, and in the best interest
of the Government, we interviewed FAA personnel at both Headquarters and
Regional offices to determine why facilities were being consolidated, identify
benefits of consolidations, and acquire MOUs and pay rules that applied to
consolidations. To obtain background information on completed consolidations,
we visited the Southern California TRACON, as this consolidation was competed
in the mid-1990s.

In addition, we examined the following: (1) controller salaries to determine the
impact of pay rule 59 and pay rule 51; (2) local MOUs that impacted consolidation
costs; (3) PCS packets for controllers who received paid PCS moves; (4) processes
and criteria used for approving PCS moves; (5) changes to controller workload or
airspace redesign that occurred as a result of consolidations; (6) cost analyses used
to identify savings resulting from consolidations; and (7) any incentives that were
given to controllers as a result of consolidations.

To evaluate FAA’s process for negotiating, approving, and implementing MOUs,
we obtained a listing of Headquarters, regional, and facility MOUs from the Air
Traffic Resource Management Program listing 404 Headquarters and
633 Regional/Facility MOUs. We reviewed the listing and chose several of the
largest MOUs pertaining to implementation of NAS equipment throughout the
country. We then visited facilities to determine whether FAA had a standard
process for managing and controlling MOUs.



Exhibit A. Scope and Methodology
                                                                               18


To determine the impact of MOUs on implementing modernization systems, we
obtained a list of Air Traffic modernization systems scheduled for deployment in
FY 2003 and the specific sites and dates of implementation. Based on the number
of facilities receiving the equipment and sites receiving more than one system, we
selected three systems to review for resource impacts. Two of these systems were
being deployed to en route centers and one was being deployed to towers.

To determine the impact, we visited several facilities that received, or are
scheduled to receive, the modernization systems. We then identified the specific
agreements contained in the MOUs that impacted overtime, incentives, immunity
from operational errors, and detailing bargaining unit members away from their
facility. We then obtained and evaluated facility documents showing total cost
and operational impact from these MOUs.




Exhibit A. Scope and Methodology
                                 19




EXHIBIT B. FAA SITES VISITED
Western Pacific Region:
  Southern California TRACON
  Northern California TRACON

Eastern Region:
   New York Center
   New York TRACON
   JFK Tower
   LaGuardia Tower
   Washington Center
   Potomac Consolidated TRACON

Great Lakes Region:
  Chicago Center
  Chicago TRACON
  Chicago O’Hare Tower

Southern Region:
   Atlanta Center
   Atlanta Tower
   Memphis Tower
   Memphis Center
   Miami Tower
   Miami Center
   Charlotte Tower
   Atlanta Consolidated TRACON




Exhibit B. FAA Sites Visited
                                                                                                                   20




EXHIBIT C. USER REQUEST EVALUATION TOOL
In July and October 2001, the Program Director for Free Flight signed two MOUs
between FAA and NATCA concerning the deployment of URET at seven Centers
(Atlanta, Chicago, Cleveland, Indianapolis, Kansas City, Memphis, and
Washington). Subsequently, the Atlanta Center did not implement the two URET
MOUs due to staffing concerns.

URET provides en route controllers with automated systems that eliminate paper
strips, manage complex amounts of flight data electronically, and provide a
“conflict probe” capability to assist controllers in strategically resolving
impending traffic conflicts.

The URET MOUs contain sections that impact the authority of the facility
manager to manage facility resources, such as overtime expenditures, awards and
personnel action. The following describes those sections in the MOUs and the
impact they had on individual facilities.


FACILITY OVERTIME
In the MOU dated July 13, 2001, FAA agreed to allow the NATCA Facility
Representative to designate a minimum of two bargaining unit employees per
operational area as Cadre Instructors, and agreed to backfill with overtime for each
shift they were receiving or providing URET training. In addition, the MOU
stated that there could be no changes to basic watch schedules and that facility
management would increase shift coverage requirements for the purposes of
conducting URET training and implementation activities. Under the MOU,
between FYs 2001 and 2003, FAA spent over $23 million1 in overtime at 6 sites to
backfill for 152 Cadre Instructors, train bargaining unit employees, and increase
shift coverage during implementation and training of URET.




1
    The total backfill overtime for controller training on URET was tracked as a whole and not broken out by the amount
    spent on Cadre Instructors versus controllers.


Exhibit C. User Request Evaluation Tool
                                                                              21


The following are the overtime expenditures and number of Cadre Instructors per
site.

  SITE                    OVERTIME             CADRE INSTRUCTORS
Chicago Center             $4,022,108                    40
Cleveland Center           $3,686,361                    29
Indianapolis Center        $2,267,723                    23
Washington Center          $4,711,893                    32
Kansas City Center         $4,257,236                    18
Memphis Center             $4,063,411                    10
      Total               $23,008,732                   152


AWARDS AND RECOGNITION
The October 2001 MOU also required managers to give bargaining unit
employees four different awards for meeting training milestones. The awards
included two $250 cash awards for each bargaining unit employee, one facility
award for $10,000 to be used on facility enhancements, and one time-off award for
24 hours to each bargaining unit employee. In total, FAA gave out approximately
$1.3 million in cash awards and approximately 62,500 hours of time-off awards,
which is equivalent to approximately 30 full-time positions. Additionally, the
MOU contained no distinction of awards for individual contributions other than
coming to work and attending the training. In fact, at the Chicago and Washington
Centers, 11 bargaining unit members received the cash awards and 16 bargaining
unit members received the time-off awards even though they were on detail, on
military leave, medically disqualified, or out on workers’ compensation.


PERSONNEL ACTION
The July 2001 URET MOU also stated that each bargaining unit employee will be
granted immunity from responsibility for all operational errors (OE), operational
deviations (OD), technical violations, and other incidents in a particular sector
during a specified time period while URET was operational. An OE occurs when
a controller does not ensure that FAA separation standards are maintained between
airplanes.

From October 2001 through May 2003, the 6 Centers reported that bargaining unit
employees identified in 84 OEs received immunity due to the URET MOU.




Exhibit C. User Request Evaluation Tool
                                                                                  22




EXHIBIT D. CONTROLLER INCENTIVE PAY
As part of the new pay system for controllers, FAA and NATCA entered into a
national MOU that provided controllers with an additional cost-of-living
differential. As a result of this MOU, controllers at 110 locations receive between
1 and 10 percent in a cost-of-living pay differential known as CIP, which is in
addition to Government-wide locality pay.

For example, like all other Federal Government and FAA employees in the
Washington Metropolitan area, controllers receive 12.74 percent in Government-
wide locality pay (during 2003). However, as a result of this MOU:

   •   Controllers at Dulles International also receive 4.6 percent in CIP;
   •   Controllers at Reagan National also receive 3.3 percent in CIP;
   •   Controllers at Andrews Air Force Base also receive 5.9 percent in CIP; and
   •   Controllers at Baltimore Washington International also receive 1.7 percent
       in CIP.


In addition, FAA management provided this additional cost-of-living allowance to
air traffic managers, supervisors, and specialists. As a result, in FY 2002, CIP cost
FAA about $35.5 million ($26.7 million for bargaining unit employees and
$8.8 million for field managers, supervisors, and specialists).

This MOU has had an impact in other areas. For example, because Dulles
TRACON controllers would forfeit their CIP payments when they moved to the
Potomac Consolidated TRACON (which does not yet receive CIP), FAA
management unilaterally provided a cash incentive to ensure that more
experienced controllers would move. Although no MOU was negotiated, FAA
chose to provide each controller with a single payment of just over $12,000 or the
approximate equivalent of 2 1/2 years of CIP in return for a commitment to remain
at the consolidated facility for 1 year. The cost of providing this incentive was
approximately $660,000.

In another example, FAA and NATCA entered into a local MOU that provided
bonuses of $850 per pay period (in addition to travel and per diem expenses) to
controllers to commute back to their previous duty stations because of differences
in CIP and locality rates. Upon announcing the Northern California TRACON’s
commissioning date, some controllers exercised their option to receive PCS
benefits and relocated nearer the new TRACON. Most of these controllers were
from the Bay TRACON, which is located in Oakland, and were receiving CIP and
locality pay for that geographic area (about 31 percent of base pay during 2003).


Exhibit D. Controller Incentive Pay
                                                                                                         23


However, because these controllers’ new duty station was the Northern California
TRACON, which is located in Sacramento, they received a lower CIP and locality
pay associated with that geographic area (about 16 percent of base pay).

When the TRACON’s commissioning date was delayed by over 1 year, the
controllers who moved were required to commute back to their old duty station in
Oakland (reverse commute).           However, because the Northern California
TRACON was now their duty station, they were paid at the lower CIP and locality
rates for the Sacramento area. Although these controllers received per diem
benefits of approximately $160 a day, reimbursement for transportation expenses,
and credit hours for travel time, the Western Pacific Region’s Assistant Air Traffic
Division Manager agreed in a local MOU to compensate those controllers for the
lower CIP and locality rate.

Under the terms of the MOU, controllers who must “reverse commute” receive an
incentive payment in the amount of $8502 each pay period for as long as they
commute back to their old duty station. As of June 2003, FAA has paid $356,000
in incentive payments to controllers to commute back to their old duty stations (in
addition to travel and per diem).


                             “Reverse Commute” Incentive
                                                                             Controller has relocated
                                                                             to Northern California
                                                                             TRACON (NCT), but
                                                                             has to commute to his/her
                                                                             old duty station due to
                                                                             the delay in opening
                                                                             NCT.



         Bay TRACON                                                       Northern California
                                        Controller is given $850 per
       Monterrey TRACON                 pay period to compensate
                                                                         Consolidated TRACON
        Oakland Center                  for the loss in CIP and
                                        locality pay. In addition,
      CIP + Locality = 31%              they receive transportation      CIP + Locality = 16%
                                        costs, per diem, and credit
                                        hours for travel.




2
    FAA and NATCA based this amount primarily on the difference in CIP and locality pay rates at the Bay and
    Northern California TRACONs.


Exhibit D. Controller Incentive Pay
                                                                                                                       24



EXHIBIT E. “PAY RULE 59” – CONSOLIDATED
FACILITIES
FAA is in the process of merging older TRACONs into new, consolidated
locations. By combining these smaller, lower rated facilities into a larger,
consolidated TRACON, the new merged facility becomes a level 12 facility.
Under FAA’s pay system for controllers, controllers who transfer from lower level
facilities to consolidated TRACONs receive pay increases because they will be
working at larger and busier locations. For example, controllers from Richmond
TRACON (level 9) making $72,168 will make $90,268 upon moving to the new
Potomac Consolidated TRACON (level 12).

As part of the 1998 collective bargaining agreement, FAA and NATCA negotiated
rules and policies for the new air traffic controller pay system. This agreement
included “pay rule 51,” which provided salary policies for controllers who transfer
to another facility. Under pay rule 51, controllers who transfer to a higher level
facility would receive 50 percent of their salary increase when they moved into the
new facility and the remaining 50 percent when they successfully certified3 at the
new facility.

Pay rule 51 would have applied to all of the consolidations we reviewed.
However, in March 2001, the Director of Air Traffic Services and NATCA
officials negotiated and agreed to a new national MOU referred to as “pay rule
59.” This new pay rule provided salary policies for controllers who are reassigned
to a consolidated facility. Under pay rule 59, controllers who transfer to a higher
level, consolidated facility will receive their salary increase in two parts.
Controllers receive the first 50 percent of their salary increase when they are
notified of their new assignment and the remaining 50 percent when the first
facility physically relocates into the new consolidated facility.

To illustrate the impact of this change, during the Atlanta consolidation,
controllers at Columbus and Macon TRACONs received 50 percent of their salary
in March 2001.4 When the first facility (Hartsfield TRACON) physically
relocated in April 2001, controllers at the Macon and Columbus TRACONs
received the second 50 percent of their pay increase even though they had not
moved and would not move for almost 1 year. Pay rule 59 provides the second
half of the salary increase to all controllers at the same time, regardless of whether
their facility has physically relocated.

3
    When moving to a new facility, controllers must learn the associated airspace and procedures of the location before
    they are “certified” to independently control air traffic at the location.
4
    Controllers at Columbus and Macon were notified that their facility would be consolidated prior to pay rule 59 being
    signed. Therefore, those controllers received their first pay raise as of the date pay rule 59 was signed instead of the
    date they were notified.


Exhibit E. “Pay Rule 59” – Consolidated Facilities
                                                                                                                        25




         Example – Controller from Columbus TRACON to Atlanta
                        Consolidated TRACON

                                                     Hartsfield                 Controllers from the        Controller certifies
                             Notified of             TRACON moves               Columbus                    at the new Atlanta
                             Reassignment to         into the new Atlanta       TRACON transfer             Consolidated
         Columbus            Atlanta                 Consolidated               to the new Atlanta          TRACON
         TRACON              Consolidated            TRACON (The first          Consolidated                (Timeframe varies
         Controller          TRACON                  facility to move in)       TRACON                      for each controller)
                             March 16, 2001          April 8, 2001              February 24, 2002




Pay rule 51    Salary = $52,644      No Change                No Change         50% of Salary Increase   100% of Salary Increase
                                  Salary = $52,644         Salary = $52,644        Salary = $71,456         Salary = $90,268

                            50% of Salary Increase    100% of Salary Increase          No Change                No Change
Pay rule 59                    Salary = $71,456          Salary = $90,268           Salary = $90,268         Salary = $90,268


    As a result of the MOU, at consolidated locations in Atlanta, Northern Virginia
    (Potomac), and Northern California, we estimate FAA incurred one-time costs of
    approximately $2.2 million by providing pay raises earlier under pay rule 59 than
    would have been provided under pay rule 51.

    We also found that in addition to providing pay increases much earlier, pay rule 59
    changed the requirement for controllers to certify before receiving their full salary
    increase. Unless controllers are conducting the same work as before the
    consolidation, controllers must certify at the new consolidated facility. As a result
    of pay rule 59, controllers will receive their full salary even though they have not
    certified at their new location.

    For example, controllers from Columbus TRACON (level 6) making $52,644
    received salary increases to $90,268 after being transferred to the Atlanta
    Consolidated TRACON (level 12) with no requirements that they certify at that
    location. According to FAA management, training for those controllers to certify
    may take as long as 2 years. However, during that time, those controllers will be
    making the salaries of fully-certified level 12 controllers. Since FAA failed to
    include a re-opener clause or expiration date as part of this MOU, FAA will
    continue to incur additional costs for future consolidations until such time that the
    agreement is rescinded or modified. FAA is considering consolidations in New
    York and Boston.




    Exhibit E. “Pay Rule 59” – Consolidated Facilities
                                                                                 26




EXHIBIT F. PERMANENT CHANGE OF STATION
BENEFITS - CONSOLIDATED LOCATIONS
At the three consolidated facilities we reviewed (Atlanta TRACON, Potomac
TRACON, and Northern California TRACON), we found FAA entered into
additional MOUs with NATCA that changed PCS rules contained in the National
CBA for those locations.

Article 58 of the National CBA contains provisions for PCS moves. For
involuntary moves resulting from facility relocation or closure, the agreement
provides controllers a paid PCS move if “official stations are separated by at least
10 miles; and the Agency has determined that the relocation was incident to the
change of official station, in accordance with Section 302-1.7 of the Federal
Travel Regulations (FTR).”

Section 302-1.7 of the FTR states that “ordinarily a relocation of residence shall
not be considered as incident to a change of official station unless the one-way
commuting distance from the old residence to the new official station is at least
10 miles greater than from the old residence to the old official station. Even then,
circumstances surrounding a particular case (e.g., relative commuting time) may
suggest that the move of residence was not incident to the change of official
station.”

However, for the Atlanta, Potomac, and Northern California TRACONs, FAA and
NATCA entered into three separate National MOUs that reduced FAA’s discretion
in determining whether additional factors existed that warranted a paid move. As
a result, FAA approved relocation benefits to controllers who may not have
qualified under the National CBA.

For example, an MOU for the Northern California TRACON provided all
controllers from Monterey and Bay TRACONs and Oakland Center with
relocation benefits as long as they moved at least 10 miles closer to the new
consolidated facility. The MOU eliminated the CBA requirement that, to receive
relocation benefits, a bargaining unit employee’s commute to the new facility must
increase by at least 10 miles when compared to their old commute. As a result, we
found that 13 out of 159 controllers were provided relocation benefits that, under
the terms of the National CBA, they would not have been eligible for.




Exhibit F. Permanent Change of Station Benefits - Consolidated
Locations
                                                                                27


For instance, one controller’s commute from his residence to his old duty station,
Bay TRACON, was 60 miles. However, his commute from the same residence to
his new duty station, the Northern California Consolidated TRACON, is only 45
miles, a decrease in commuting distance of 15 miles. Yet, under terms of the
MOU, this employee was authorized approximately $122,000 in relocation
benefits for a future PCS move. The estimated cost of all 13 moves is over
$1.3 million.

In total for the three consolidated facilities, we found FAA automatically approved
109 PCS moves at an estimated cost of $6.3 million that, under the National CBA,
would have required an assessment of a controller’s individual circumstances.
While some of these moves may have been approved under the criteria of the
National CBA, FAA gave up its authority to review the necessity of each move on
a case-by-case basis when it signed an MOU that restricted FAA’s discretion.
Without reviewing each move, FAA cannot be assured that these moves were in
the best interest of the Government.




Exhibit F. Permanent Change of Station Benefits - Consolidated
Locations
                                                                               28




EXHIBIT G. NATIONAL AIRSPACE REDESIGN
(NAR)
On March 16, 2001, the Director of Air Traffic Service signed an MOU between
FAA and NATCA concerning the NAR. The purpose of NAR is to review
domestic and oceanic airspace and develop a strategy that will allow FAA to make
changes that will achieve the most efficient design for customer operations while
maintaining the highest standards of safety.

We found two issues under the NAR MOU that caused concern. First, in the near
term the NAR MOU impacts a facility manager’s ability to assign work by
allowing a significant number of bargaining unit members to be detailed to
numerous national, regional, and local workgroups. Second, for a longer term
impact, the NAR MOU allows a facility to keep its ATC level determination (and
commensurate controller salaries), even though its number of operations and
degree of operational difficulty may decrease as a result of airspace redesign.


ASSIGNMENT OF WORK
Collaboration on NAR activities between FAA and NATCA is developed through
numerous workgroups throughout Headquarters, regions, and facilities. The NAR
MOU requires the services of bargaining unit employees for numerous
workgroups, such as the Airspace Liaison Team, small technical teams, Regional
Focus Leadership Teams, Facility Focus Leadership Teams, and Facility Design
Teams. The MOU also states that all facilities involved in airspace redesign will
receive operational overtime to cover absences for representatives in NAR
activities.

While involving bargaining unit employees in the research, design, and
implementation of new technology is clearly beneficial to FAA, there is concern
over the numbers of bargaining unit employees participating on the different NAR
workgroups and the amount of overtime resources expended to cover their
absences. At 10 facilities, we found 62 bargaining unit employees were granted
part-time absences to work on NAR workgroups, while an additional 6 bargaining
unit employees were granted full-time absences. According to facility managers,
significant overtime resources were used to cover for their absences. For example,
at the New York TRACON, six bargaining unit employees worked part-time and
three bargaining unit employees worked full-time on NAR workgroups. As a
result, the New York TRACON expended approximately $843,000 in overtime to
replace the nine bargaining unit employees who were working on NAR activities.


Exhibit G. National Airspace Redesign (NAR)
                                                                                      29


FACILITY ATC LEVEL
Another part of the NAR MOU states that if, as a result of airspace redesign, a
facility qualifies for a decrease in its classification level, employees shall retain the
current ATC level pay that was in effect prior to the decrease. The NAR MOU
allows a bargaining unit employee to retain the higher ATC level pay indefinitely,
or until he/she voluntarily transfers to another facility.

Although no facility has had to decrease its facility classification level as a result
of airspace redesign, this agreement restricts FAA’s ability to fairly set pay ranges
for each facility. The original reason for changing the classification of air traffic
facilities from a 5-level system to a 12-level system was to fairly compensate air
traffic facilities based on numbers of operations and the complexity of operations
at each location. The NAR MOU language contradicts the intentions of the
original pay system’s design.




Exhibit G. National Airspace Redesign (NAR)
                                                                              30




EXHIBIT H. AIRPORT MOVEMENT AREA SAFETY
SYSTEM (AMASS)
On July 6, 2000, a manager in the Communications, Navigation, Surveillance, and
Infrastructure Directorate signed an MOU between FAA and NATCA addressing
impact and implementation issues concerning AMASS.                AMASS is an
enhancement to the Airport Surface Detection Equipment radar. AMASS tracks
all ground operations, compares each movement, and automatically provides
visual and audio alert of potential conflicts between aircraft. The MOU contains
sections outlining specific agreements concerning training and overtime.

The MOU stated that there would be no changes to bargaining unit employees’
basic watch schedule, scheduled annual leave, other types of leave, and/or
alternate work schedules (AWS) due to AMASS. According to air traffic
managers, essentially this agreement required facility managers to expend
overtime dollars to fill in for bargaining unit employees who were required to be
trained on AMASS. It did not allow the managers to determine methods other
than overtime to fill in for bargaining unit employees who were being trained.

For example, one air traffic manager stated that he had developed an AMASS
training schedule that would deliver the required 8 hours of training to all
employees at no additional cost. However, according to the manager, the union
stated that overtime dollars had to be used per the requirements of the MOU.
Consequently, the union was allowed to develop the training schedule, which
decreased the number of attendees in a class and increased the number of classes
needed. As a result, the facility expended 98 hours of overtime at a cost of
approximately $7,000. At four sites reviewed, we found that approximately
$181,000 in backfill overtime was expended to provide all bargaining unit
employees 8 hours of training on AMASS.




Exhibit H. Airport Movement Area Safety System (AMASS)
                                                                                   31




EXHIBIT I. CRU-X
FAA is developing a labor distribution system, called CRU-X, which would
account for and distribute its labor costs, including the costs of FAA’s 15,000 air
traffic controllers, to specific facilities and functions for FAA to better assess its
workload, performance, and workforce productivity. FAA’s Air Traffic Services
labor cost for FY 2001 was $2.6 billion.

In October 2001, we reported that CRU-X had two design flaws. CRU-X allowed
air traffic controllers to override the computer’s internal clock and record any start
and stop work time, regardless of actual arrival or departure from work. In
addition, while CRU-X had the capability to capture labor hours by collateral or
off-scope duty categories as described in the National CBA, these categories were
not programmed into CRU-X.

In May 2002, FAA met with us and agreed to resolve the sign-in/sign-out
problems and to build internal controls into the system. However, in September
2002, FAA’s Director for Air Traffic Resource Management Program and
NATCA entered into a separate MOU that significantly reduced the system’s
ability to track employee productivity. Specifically, the MOU eliminated the
requirement for controllers to sign in or out, and CRU-X was not programmed to
identify or assign the time controllers spend on collateral activities when not
controlling air traffic.

On June 3, 2003, we issued report number FI-2003-043, “2002 Status Assessment
of Cost Accounting System and Practices,” which identified the internal control
weaknesses of CRU-X resulting from the MOU. We recommended that FAA
implement the necessary internal controls in CRU-X to ensure that employees
accurately record their start and stop work times for hours worked and to report air
traffic controller duties by position and collateral duties by function. FAA
concurred with our recommendation and stated that it would provide the necessary
internal controls.

If Cru-X is implemented effectively, it could provide credible workforce data for
addressing controller concerns about staffing shortages, related overtime
expenditures, and how many controllers are needed and where. That information
in turn is especially important, given projections of pending controller retirements.




Exhibit I. CRU-X
